                             Office of the Inspector General

September 28, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Management Advisory Report - Implementation of the Social Security Administration's
Integrated Human Resources System (A-14-99-92009)


The attached Management Advisory Report presents the results of our review of the
Social Security Administration’s (SSA) implementation of its Integrated Human Resources
System (IHRS). The objectives of our review were to determine whether SSA’s IHRS
(1) is being implemented cost-effectively, (2) will meet the needs of SSA’s users, and
(3) can handle SSA’s human resource workloads. Based on the information available at
the time of our review, we have concerns that the system will not satisfy users’ needs or
meet all of SSA’s human resource workloads.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report, please
call me or have your staff contact Steven L. Schaeffer, Assistant Inspector General for
Audit, at (410) 965-9700.




                                                James G. Huse, Jr.


Attachment
                 OFFICE OF

          THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



      IMPLEMENTATION OF THE
         SOCIAL SECURITY
   ADMINISTRATION’S INTEGRATED
     HUMAN RESOURCES SYSTEM


         September 2000                  A-14-99-92009



  MANAGEMENT

ADVISORY REPORT





This document is a draft report of the Office of the Inspector General
 and is subject to revision; therefore, recipients of this draft should
 not disclose its contents for purposes other than for official review
 and comment under any circumstances. This draft and all copies
  thereof remain the property of, and must be returned on demand
                to, the Office of the Inspector General.
                  EXECUTIVE SUMMARY


OBJECTIVES
The objectives of our review were to determine whether Social Security Administration’s
(SSA) Integrated Human Resources System (IHRS) (1) is being implemented
cost-effectively, (2) will meet the needs of SSA’s users, and (3) can handle SSA’s human
resource (HR) workloads.

BACKGROUND
SSA uses the automated Human Resources Management Information System (HRMIS)
to provide both cyclical reporting functions and an automated facility. However, the
input processes for HRMIS tend to be manual at the staff and first-line managerial
levels. Workload transaction control functions often depend on stand-alone personal
computer-based systems or are maintained manually. Furthermore, HRMIS does not
capture information relating to several HR business processes. SSA intends IHRS to
replace HRMIS. SSA stated that, while HRMIS is in no apparent danger of any short-term
failure, it is an older system that will be increasingly harder and more costly to maintain. It
is also less capable of adapting to new technologies and business processes. SSA also
stated that it needs to follow Federal guidance to replace aging systems with
commercial-off-the-shelf (COTS) software in its systems environment. In 1996, SSA
awarded a $16.5 million, 5-year contract to Anderson Consulting to acquire the PeopleSoft
HR COTS and technical support services for its implementation.

RESULTS OF REVIEW
While conducting our preliminary audit work, we identified certain issues that
management should know before it makes critical decisions regarding the continued
funding of the IHRS project. The problems we identified are not unique to SSA, and we
considered this in our assessment. We summarized significant IHRS project events
associated with its contractual history, fiscal oversight, implementation strategy, and
user satisfaction.

CONCLUSIONS AND RECOMMENDATIONS
Since SSA awarded the contract in 1996, SSA has not received a fully functional IHRS
product within the planned time frames. At the end of Fiscal Year (FY) 1999, SSA had
spent $13.9 million of the $16.5 million total contract value, and had approved the
remaining $2.6 million for FY 2000. SSA has implemented only a portion of the IHRS
software in a pilot mode. In addition, SSA does not have any formal estimates of how long
it will take to achieve full IHRS functionality or what this will cost.



                                               i
Before committing future funding on IHRS, SSA needs to address these issues.
Therefore, we recommend SSA:

•	 Re-evaluate the project and address the issues of fiscal oversight, escalating costs,
   and project delays.

•	 Complete a risk analysis before implementing any future IHRS releases, as currently
   required by the Clinger-Cohen Act.

•   Complete a cost-effectiveness analysis for IHRS.

•	 Complete a new project work plan with cost projections, milestones and estimated
   future task orders, and update them periodically.

•	 Do not approve future funding for IHRS until SSA components forward IHRS’ project
   work plans and milestones to Information Technology Systems Review Staff.

•   Document the rationale and basis for funding decisions.

•	 Develop a plan to reduce or minimize software problems before implementing future
    releases of IHRS in pilot mode.

For future projects similar to IHRS, SSA needs to be more diligent to ensure it is getting a
good value for its money and document the basis for its decisions. SSA may also need to
terminate projects where the cost-benefit ratio or cost-effectiveness does not support
continuing a project.

AGENCY COMMENTS
In its response, SSA agreed with our recommendations. SSA has indicated that, by the
end of FY 2000, it will award a contract for an independent review of the current
PeopleSoft-related IHRS project. SSA has further stated that the contractor and/or SSA
will complete each of the steps outlined in the Office of the Inspector General
recommendations.




                                              ii
                        TABLE OF CONTENTS

                                                                                                              Page

EXECUTIVE SUMMARY..........................................................................................i

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 3

CONCLUSIONS AND RECOMMENDATIONS .................................................... 12

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Agency Comments
APPENDIX C - OIG Contacts and Staff Acknowledgments
APPENDIX D - SSA Organizational Chart
                          INTRODUCTION


OBJECTIVES
The objectives of this review were to determine whether the Social Security
Administration's (SSA) Integrated Human Resources System (IHRS) (1) is being
implemented cost-effectively, (2) will meet the needs of SSA's users, and (3) can handle
SSA’s human resource (HR) workloads.

BACKGROUND
SSA uses the automated Human Resources Management Information System
(HRMIS) to provide both cyclical reporting functions and an automated facility.
However, the input processes for HRMIS tend to be manual at the staff and first-line
managerial levels. Workload transaction control functions often depend on stand-alone,
personal computer-based systems or are maintained manually. Furthermore, HRMIS
does not capture information relating to several HR business processes. During our
review, SSA made convincing arguments for the implementation of IHRS as a
replacement for HRMIS. SSA stated that, while HRMIS is in no apparent danger of any
short-term failure, it is an older system that will be increasingly harder and more costly to
maintain. It is also less capable of adapting to new technologies and business processes.
SSA also stated it needs to follow Federal guidance by replacing aging systems with
commercial-off-the-shelf (COTS) software in its systems environment.

On June 23, 1995, SSA approved a Request for Contract for the IHRS project. IHRS
was intended to automate workflow functions and HR business processes and provide
an information management system. The Agency then distributed requests for proposals
to 145 prospective offerors in November 1995. On January 3, 1996 (the closing date for
receiving offers), the Agency received two proposals—one from Andersen Consulting and
the other from PricewaterhouseCoopers. Both offerors proposed the same COTS
package—PeopleSoft Human Resources. SSA established a Technical Evaluation
Committee to conduct a technical evaluation of the proposals, and the Office of Acquisition
and Grants performed a cost evaluation. In May 1996, the Technical Evaluation
Committee recommended the award be made to Andersen Consulting. The Source
Evaluation Board approved the award.

SSA, like many other Federal agencies, viewed the use of a COTS package as a viable
option for meeting the information technology needs of its HR functions. SSA believed
using a COTS package would reduce overall project risk, especially in software
development schedule, cost, and reliability areas. SSA also anticipated that a COTS
package would provide a minimum of 60 percent functionality “out-of-the-box.” Also,
after customization, SSA expected the COTS package to achieve 100 percent
functionality.


                                              1
SSA was required to follow numerous Federal laws and guidelines in developing IHRS,
such as Office of Management and Budget (OMB) Circular A-94, Guidelines and
Discount Rates for Benefit-Cost Analysis of Federal Programs, revised
October 29, 1992. The Circular provides guidelines to Federal agencies’ decisions to
initiate, renew, or expand programs or projects that will extend for 3 or more years into
the future. The Information Technology Management Reform Act of 1996, now known
as the Clinger-Cohen Act (CCA), established more stringent requirements specifically
for Information Technology projects, such as IHRS, and became effective shortly after
the IHRS contract was awarded.1 The CCA required the establishment of a Chief
Information Officer (CIO), independent assessments of Information Technology
projects, and a well-defined capital planning and investment control process. SSA’s
Information Technology Systems Review Staff (ITSRS) serves as the principal
independent source of advice to the CIO, the CIO’s core team, and the advisory council
on matters relating to Information Technology and Information Resources Management.

SCOPE AND METHODOLOGY
We held an entrance conference with Agency representatives on June 29, 1999. At that

time, we initiated our field work. We reviewed relevant documentation, including cost-

benefit analyses (CBA), contracts, meeting minutes, spreadsheets, and other pertinent

documents. We also interviewed the Deputy Commissioners for Systems and HR and

their staffs, the Director of ITSRS, current and former Project Managers, IHRS pilot

participants, and other Federal users of the PeopleSoft COTS software. We conducted

our review from April through September 1999 primarily at SSA Headquarters in

Baltimore, Maryland. We also spoke with users at the IHRS pilot site in Kansas

City, Missouri, and the Federal PeopleSoft Users’ Network in Washington D. C., as well as

other Federal agencies.2





1
    The CCA was enacted on February 10, 1996, and became effective on August 8, 1996.
2
   We spoke with the Department of Veterans’ Affairs; Department of Justice, Bureau of Prisons; Department
of Commerce, Bureau of the Census; National Security Agency; and the Administrative Office of the United
States Courts.



                                                    2
                  RESULTS OF REVIEW


While conducting our preliminary audit work, we identified certain issues that
management should know before it makes critical decisions regarding the continued
funding of the IHRS project. The problems we identified are not unique to SSA, and we
considered this in our assessment. Below is a summary of significant IHRS project
events associated with its contractual history, fiscal oversight, implementation strategy,
and user satisfaction.

The IHRS project was initiated when the Deputy Commissioner for HR requested a
preliminary CBA and Requirements and Alternatives Analysis be prepared in November
and December 1994, respectively (and revised in April and May 1995). Under these
analyses, four alternatives were considered: (1) maintain the current HRMIS system,
(2) develop IHRS in-house, (3) develop IHRS using contractor personnel, and (4) acquire
a COTS package to satisfy IHRS requirements. SSA selected the fourth alternative.

The 1994 and 1995 CBAs lacked a provision for contractor costs and instead, showed
SSA personnel costs only for software development, as follows.

                            Table 1: Estimated Project Costs
                              (From April 1995 CBA Data)
        Cost Category                                          Estimated Cost
        Salaries - New Development (SSA personnel)                $4,840,000
        Salaries - Ongoing Maintenance (SSA personnel)             3,261,000
        HRMIS Costs                                                  500,000
        COTS Software
             Purchase                                              5,000,000
             Maintenance                                           4,500,000
        Total Costs                                              $18,101,000
        Math Error in CBA                                            350,000
        Total Costs in Raw Dollars                               $18,451,000
        Costs Adjusted for Inflation                             $19,658,000
        Costs Presented in 1996 Dollars                          $15,979,000




                                            3
In April 1995, the Office of Information Management (OIM) submitted a budget
justification for IHRS funding to ITSRS for Fiscal Years (FY) 1996-2001.3 OIM
requested $5.2 million for FY 1996 based on $9,861,000 estimated total project costs
through FY 2001, as follows.

                                Table 2: Estimated Project Cost
                                    (At Beginning of the project)

                                       Fiscal           Estimated
                                        Year             Funding
                                        1996         $5,200,000
                                        1997             988,000
                                        1998            1,250,000
                                        1999             950,000
                                        2000             850,000
                                        2001             623,000
                                      TOTAL          $9,861,000

In June 1995, ITSRS recommended that funding be approved as previously requested
based on the $9,861,000 estimated total project cost. ITSRS did not receive a formal
CBA with OIM’s budget request, although OIM provided portions of a draft CBA.

On June 25, 1996, SSA awarded Andersen Consulting a fixed-price indefinite quantity
contract with a base term of 12 months (plus four 12-month options to extend the
contract’s term). The maximum contract value was $16,520,577 ($6,659,577 more than
SSA’s original budget estimate of $9,861,000). The purpose of the contract was to
acquire a COTS software package (for example, PeopleSoft HR) and provide the support
services necessary to customize and implement the software. The minimum (required)
and optional costs for each contract year were agreed (per the contract) as follows.




3
   OIM, acting on behalf of, and after consulting with, the user component (HR), in accordance with the
formal budgeting procedures in place within the Office of Systems, prepared IHRS budget justifications and
requests for submission to ITSRS through the Deputy Commissioner for Systems. OIM also responded to
budget questions from ITSRS and attended periodic investment review meetings in conjunction with
representatives from the HR, Systems, and Financial Management components. While we frequently refer to
financial and budget activities in this report as being performed by OIM, in essence, many of the financial
management aspects of IHRS were the responsibility of several components.



                                                    4
                    Table 3: Agreed Upon Contract Value By Year
                                 Software and      Customization
                                    Annual         and Technical
                                 Maintenance          Services       Contract Value
                                  (Required)         (Optional)       (Maximum)
     Contract Year 1               $3,139,131        $2,267,479         $5,406,610
     Contract Year 2                   469,320        2,103,677           2,572,997
     Contract Year 3                   504,516        2,182,004           2,686,520
     Contract Year 4                   542,352        2,291,526          2,833,878
     Contract Year 5                   583,032        2,187,940          2,770,972
     Other Costs (Any Year)                             249,600            249,600
     TOTALS                        $5,238,351       $11,282,226        $16,520,577

Also, according to the contract, the contractor agreed to automate the following 11 HR
business processes.

    1.    Employee Benefits
    2.    Employee Services
    3.    Employee Training and Development
    4.    Equal Employment Opportunity
    5.    Labor Management Relations
    6.    Performance Management and Incentives
    7.    Organization Management
    8.    Position Classification
    9.    Recruitment
    10.   Management of Appointments and Separations
    11.   Process Official Personnel Actions

SSA later restructured these 11 HR business processes and reorganized them into
16 HR business process categories.

On January 23, 1997, the Agency and the contractor modified the contract to reallocate all
of the technical services costs from 5 years to the first 2 years of the contract and shift
labor hours from the computer programmer category (at $66.12 per hour) to the program
management category (at $252.81 per hour). This shift resulted in a 31,480-hour
reduction in total labor hours available under the contract (from 100,800 to 69,320 hours),
but the maximum contract value did not change. The Agency’s justification for this
modification was based on its belief that the software would require “minimum
customization from the out-of-box solution.”

Also in January 1997, OIM submitted a request to increase its original FY 1997 budget
request of $988,000 to $8,000,000—a $7,012,000 increase. OIM based the increase



                                             5
on two factors. First, the Source Selection Advisory Committee decided to award the
contract in excess of the total estimated project budget amount by $6,659,577. Second,
the strategy for the project had changed to front-load technical services resulting in
delivery of full IHRS functionality within the first 2 years of the contract. ITSRS
responded to OIM by requesting additional information (for example, project work plans,
estimated funding, and milestone data) in support of budget justification and project
strategy approval.

On May 15, 1997, ITSRS concluded the 1994 and 1995 CBAs were outdated and did
not represent “an appropriate business case for today’s investment decision” and
recommended another CBA be completed. The CIO approved FY 1997 funding to
enable continuation of work pending completion of a new CBA.

In June 1997, the contractor prepared the Final Release Strategy needed to achieve full
IHRS functionality (however, the Final Release Strategy was subsequently revised in
July 1997, February 1998, and March 1998). The June 1997 Strategy presented
4 separate releases encompassing 16 HR business processes over a 5-year period,
with implementation starting in October 1998 and ending in September 2001 (see
Table 4 below). The Strategy was revised with minor changes in July 1997, but still
presented 4 separate releases encompassing 16 HR business processes over a 5-year
period.

                          Table 4: IHRS Release Strategy
                              (As of June/July 1997)
                                                      Business Processes
                Release Number                      (as of June & July 1997)
          Release One                     •       Salary Administration
                                          •       Employee Hire
                                          •       Employee Maintenance
                                          •       Position Management
                                          •       Performance Management
                                          •       Selection & Recruitment
          Planned Implementation Dates                        10/1/98
          Release Two                     •       Training Administration
                                          •       Career Planning
                                          •       Labor Relations
                                          •       Health & Safety
                                          •       Government Regulations
          Planned Implementation Dates                        4/1/99
          Release Three                   •       Benefits
          Planned Implementation Dates                        3/1/00
          Release Four                    •       Suggestions
                                          •       Employee Assistance Program
                                          •       Student Programs
                                          •       Worklife Enrichment
          Planned Implementation Dates                        9/1/01



                                              6
Also in June 1997, OIM requested an additional $1,178,000 above prior approved
budgeted amounts for FYs 1998-2001. Based on the information OIM provided, ITSRS
concluded in July 1997 “projected costs . . . significantly exceed the originally projected
benefits.” As a result, ITSRS recommended that additional funding not be provided until
a new CBA could be completed.

In October 1997, the Deputy Commissioners for HR; Systems; and Finance,
Management and Assessment met with the CIO to discuss IHRS and to determine
whether to continue funding. They agreed that future meetings would be held every
90 days to review IHRS. The CIO agreed to provide $962,235 in additional funding for
IHRS through January 31, 1998.

A new IHRS CBA was completed in November 1997. However, this CBA included only
two alternatives: maintain the old HRMIS or implement IHRS using PeopleSoft COTS.
SSA excluded the other two previously considered alternatives (in-house development
and in-house development with vendor support) from this CBA. The CBA assumed
IHRS Release One would become operational in October 1998, with full national
operational capability by September 2001. Sixteen business processes were included
in the IHRS CBA.

In February 1998, SSA revised the Release Strategy a third time to reflect events that
had invalidated many of the previous assumptions and facts. Salary Administration was
removed from Release One and split among Releases Two and Four instead. This
occurred because SSA could not resolve problems with the interface with its external
payroll provider.




                                             7
                          Table 5: Changes in Release Strategy
                                       (As of February 1998)

          Release                  Business Processes                 Business Processes
          Number                   (as of June & July 1997)           (as of February 1998)
Release One                    •    Salary Administration      • Position Management (partial)
                               •    Employee Hire              • Performance Management
                               •    Employee Maintenance       • Selection & Recruitment (partial)
                               •    Position Management        • Labor Relations (partial) –
                               •    Performance                   Grievance Tracking portion
                                    Management                 • Training Administration (partial)
                               •    Selection & Recruitment
Planned Implementation Dates               10/1/98                             1/2/99
Release Two                    •    Training Administration    •   Labor Relations (partial)
                               •    Career Planning            •   Health & Safety (partial)
                               •    Labor Relations            •   Government Regulations (partial)
                               •    Health & Safety            •   Salary Administration (partial)
                               •    Government Regulations     •   Employee Hire
                                                               •   Position Management (partial)
                                                               •   Selection & Recruitment (partial)
Planned Implementation Dates                4/1/99                             1/2/00
Release Three                  •    Benefits                   •   Benefits
                                                               •   Career Planning
                                                               •   Suggestions
                                                               •   Student Programs
                                                               •   Worklife Enrichment
                                                               •   Employee Assistance Program
Planned Implementation Dates                3/1/00                             1/2/01
Release Four                   •    Suggestions                •   Health & Safety (partial)
                               •    Employee Assistance        •   Labor Relations
                                    Program                    •   Government Regulations (partial)
                               •    Student Programs           •   Salary Administration (partial)
                               •    Worklife Enrichment
Planned Implementation Dates                9/1/01                             7/5/01

   In March 1998, SSA revised the Release Strategy a fourth time to remove Releases
   Three and Four from the implementation plan. Overall functionality was reduced
   because the number of business processes to be included in IHRS was reduced from
   16 to 7. SSA removed Salary Administration, Employee Hire, Employee Maintenance,
   Training Administration, Career Planning, Benefits, Suggestions, Employee Assistance
   Program, Student Programs, and Worklife Enrichment from the Release Strategy. This
   is not to say that SSA did not intend to build these business processes into IHRS, but
   rather it is viewed as an acknowledgement by SSA that those functions would not be
   possible under the current contract and project plan.




                                                 8
     While SSA anticipated Releases One and Two would be implemented in January 1999
     and January 2000, respectively, Release One was only released as a pilot in March 1999.
     Also, as of April 2000, IHRS Release One had not been fully implemented Agencywide,
     and the January 2000 implementation date for Release Two has not been met.

                                  Table 6: Changes in Release Strategy
                                            (As of March 1998).
      Release            Business Processes                 Business Processes              Business Processes
      Number             (as of June & July 1997)          (as of February 1998)                (as of March 1998)
Release One              • Salary Administration    •   Position Management (partial)       •   Labor Relations
                         • Employee Hire            •   Performance Management                   (partial) -Grievance
                         • Employee                 •   Selection & Recruitment                  Tracking portion
                             Maintenance                 (partial)                          •   Position Management
                         • Position Management      •   Labor Relations (partial) -         •   Selection &
                         • Performance                   Grievance Tracking portion              Recruitment
                             Management             •   Training Administration (partial)   •   Performance
                         • Selection &                                                           Management
                             Recruitment
Planned Implementation
Dates                    10/1/98                    1/2/99                                  1/2/99
Release Two              • Training                 • Labor Relations (partial)             • Labor Relations
                             Administration         • Health & Safety (partial)             • Health & Safety
                         • Career Planning          • Government Regulations                • Government
                         • Labor Relations              (partial)                               Regulations
                         • Health & Safety          • Salary Administration (partial)
                         • Government               • Employee Hire
                             Regulations            • Position Management (partial)
                                                    • Selection & Recruitment
                                                        (partial)
Planned Implementation
Dates                    4/1/99                     1/2/00                                  1/2/00
Release Three            • Benefits                 • Benefits
                                                    • Career Planning
                                                    • Suggestions
                                                    • Student Programs
                                                    • Worklife Enrichment
Planned Implementation
Dates                    3/1/00                     1/2/01
Release Four             • Suggestions              • Health & Safety (partial)
                         • Employee Assistance      • Labor Relations
                             Program                • Government Regulations
                         • Student Programs             (partial)
                         • Worklife Enrichment      • Salary Administration (partial)
Planned Implementation
Dates                    9/1/01                     7/5/01




                                                        9
Also in May 1998, ITSRS requested additional documentation, such as the CBA, budget
request, and work plan, from OIM for the investment review meeting scheduled for
July 1998. ITSRS also requested information pertaining to progress made toward target
dates and deliverables presented in the work plan and progress toward payroll
integration and future IHRS releases.

OIM submitted its annual IHRS budget request for FY 1999. The request included a
$2,008,000 increase over previously estimated project costs for FY 1999. ITSRS
placed the funds in a reserve account pending the CIO’s decision to approve continued
IHRS funding. At a July 1998 CIO investment review meeting, the Office of Workforce
Analysis (OWA) was commissioned to analyze IHRS.

                      Table 7: IHRS Budget Request for FY 1999
                                     (As of July 1998)

                                     Original Project
                 Fiscal Year            Estimate             OIM Request
                    1996               $5,200,000             $5,200,000
                    1997                  988,000             1,350,000
                    1998                1,250,000             3,567,000
                    1999                  950,000             2,958,000
                    2000                  850,000                639,000
                    2001                  623,000             1,738,000
            TOTAL                      $9,861,000            $15,452,000

The pilot for Release One, originally scheduled for October 1998 in Kansas City and
selected Headquarters components, was delayed until March 1, 1999.

OWA began its evaluation of the initial IHRS pilot release in April 1999 and issued a
report on May 20, 1999. Pilot users gave mixed responses when asked about IHRS
functionality. OWA interviewed 31 users in the Kansas City region and 50 participants at
Headquarters who had used the software. OWA’s evaluation report stated the
Kansas City pilot users indicated greater overall dissatisfaction with the IHRS software
than Headquarters participants. For example, Kansas City users were dissatisfied with the
lack of “user-friendly” functionality (data input terms were too technical and input screens
were too cumbersome), additional inputs to process many actions, and the requirement to
input duplicate data into HRMIS. Some actions still required time-consuming manual
processing and resulted in decreased productivity, thwarting efforts to provide timely
information to managers. While users in Headquarters were more satisfied with IHRS’
overall functionality, both the Kansas City and Headquarters users believe IHRS could
benefit them in the future if the problems can be adequately resolved.




                                            10
On May 21, 1999, the CIO approved additional funding of $1,188,026 through
September 30, 1999, for Release One support, program management, and PeopleSoft
maintenance. In June 1999, OIM submitted a new budget request for $6,094,000 for
FYs 2000 through 2005.

                      Table 8: IHRS Budget Request for FY 2000
                                      (As of July 1999)

                                      Original       OIM Requested
                        Fiscal         Project         (Approved by
                         Year         Estimate             CIO)
                         1996        $5,200,000         $5,200,000
                         1997           988,000          1,350,000
                         1998         1,250,000          3,567,000
                         1999           950,000          2,849,000
                         2000           850,000          2,569,000
                         2001           623,000            624,000
                         2002                  0           664,000
                         2003                  0           705,000
                         2004                  0           745,000
                         2005                  0           787,000
                        TOTAL        $9,861,000        $19,060,000

In July and August 1999, we interviewed staff in Kansas City and Headquarters, and our
conclusions were consistent with OWA’s April 1999 survey. Also, in our discussions with
other Federal agencies and the Federal PeopleSoft Users’ Network, we found some
resistance to change to a PeopleSoft based HR system was almost universal among
Federal agencies.

On September 7, 1999, we briefed SSA managers and their staffs on our preliminary
findings and recommended that SSA stop funding IHRS until the issues outlined in this
report are resolved. We also gave SSA until mid-November 1999 to provide us with any
additional information it felt might affect our audit work. SSA did provide us with a limited
amount of additional information; however, that information did not change our
conclusions. On September 10, 1999, the CIO approved an additional $2,635,924 for
IHRS funding through FY 2000 for continued life-cycle support, program management,
and PeopleSoft maintenance.




                                              11
 CONCLUSIONS AND RECOMMENDATIONS


Since SSA awarded the contract in 1996, it has not received a fully functional IHRS
product within the planned time frames. By the end of FY 1999, SSA had spent
$13.9 million of the $16.5 million total contract value and had approved the remaining
$2.6 million for FY 2000. SSA has implemented only a portion of the IHRS software in a
pilot mode. In addition, SSA did not have any formal estimates of how long it will take to
achieve full IHRS functionality or what this will cost.

We recognize the problems SSA is experiencing in implementing IHRS are common
among Federal users implementing a PeopleSoft HR system, and we considered this in
our assessment. There are, however, several steps SSA could have taken to mitigate the
unexpected costs and delays it experienced.

First, SSA should have completed a risk analysis, as required by CCA. While SSA was
not required to complete a risk analysis of IHRS because the project was initiated before
the effective date of CCA, we believe good business practice requires an assessment of
risk before any major systems development project is initiated. A risk analysis would have
alerted SSA to the potential for extensive unexpected costs and project delays. For
example, SSA would have been better able to anticipate project delays and higher costs
had it considered the technology used to develop IHRS (that is, client/server architecture)
was new to the Agency and, according to an SSA official, the Agency did not have the
experience and expertise to make the transition easily.

Second, when the expected cost of the project increased 67 percent (from $9.9 million to
$16.5 million), SSA management should have re-evaluated the project in light of this
information. SSA top management we spoke with dismissed the increased cost as
something that is a normal occurrence at the beginning of a project at SSA. SSA needs to
base its decisions on better financial information. The CBAs were outdated, inaccurate, or
incomplete because the presumptions and assumptions SSA used in the CBAs were not
revised to accurately reflect actual events and plans and did not provide a revised
estimated project plan midway through the project. When unexpectedly high costs and
expanded time frames occur at the beginning of a project, SSA needs to prepare realistic
projections of what the project is going to cost and how long it is going to take, and
determine whether the project continues to be viable. OMB Circular A-94 suggests a cost-
effectiveness analysis could be used in cases where a policy decision has already been
made that the benefits must be provided. In such cases, a CBA, such as SSA used,
would not be the most useful tool because it compares the current system with possible
alternatives. Midway through the IHRS project, it would have been more realistic to
prepare a cost-effectiveness analysis rather than a new CBA with only two alternatives
considered (that is, keeping the old system versus continuing with the PeopleSoft
HR-COTS alternative).




                                             12
Third, ITSRS, the component that is tasked as being a major advisor to the CIO, needs to
assert its role in the systems development process. ITSRS did not initiate a change in the
investment review process until May 1998. At that point, ITSRS began requesting project
work plans, estimated funding and milestone data from OIM, in addition to CBA data. We
can find no record that OIM provided this information to ITSRS, and OIM was not certain it
had provided all of the requested information. ITSRS must be allowed to require the Office
of Systems to provide it with project work plans and milestones before it makes
recommendations, and before the CIO approves funding for a project. Project work plans
and milestones, as required under CCA, would have allowed ITSRS to more closely
follow IHRS development and recognize in a more timely manner when the project
became behind schedule and over budget.

Fourth, we had a difficult time determining exactly what information was presented and
discussed during the periodic investment review meetings, during which important
funding decisions were made. This is because the rationale for such decisions was not
clearly documented for our review. In the future, SSA should carefully document the
details of its discussions and meetings, including funding decisions, so that when these
decisions are reviewed, the reasons and basis for those decisions will be adequately
supported.

Fifth, while we commend SSA for correcting many of the operational problems it
experienced during the initial piloting of Release One, SSA still needs to be more diligent
to ensure that future IHRS releases more effectively meet user needs before going into the
pilot mode. According to an SSA official, one of the reasons IHRS experienced delays
and higher costs was because the Agency had not standardized its business processes
before developing the software. Therefore, we believe SSA should be more precise in the
requirements and development phases to ensure minimization of software problems
before releasing it in pilot because it is more costly to correct errors with new software in
later stages of development. It also leads to greater dissatisfaction among users and
resistance to adopting the new software.

Before committing future funding on IHRS, SSA needs to address these issues.
Therefore, we recommend SSA:

1. 	 Re-evaluate the project and address the issues of fiscal oversight, escalating costs,
     and project delays.

2. 	 Complete a risk analysis before implementing any future IHRS releases, as required by
     CCA.

3. Complete a cost-effectiveness analysis for IHRS.

4. 	 Complete a new project work plan with cost projections, milestones and estimated
     future task orders, and update them periodically.




                                             13
5. 	 Do not approve future funding for IHRS until SSA components forward IHRS' project
     work plans and milestones to ITSRS.

6. Document the rationale and basis for funding decisions.

7. 	 Develop a plan to reduce or minimize software problems before implementing future
   releases of IHRS in pilot mode.

For future projects similar to IHRS, SSA needs to adhere to the CCA, be more diligent to
ensure that SSA is getting a good value for its money, and document the basis for its
decisions. SSA may also need to terminate projects where the cost-benefit ratio or cost-
effectiveness does not support continuance of a project.

AGENCY COMMENTS
In its response, SSA agreed with our recommendations. SSA has indicated that, by the
end of FY 2000, it will award a contract for an independent review of the current
PeopleSoft-related IHRS project. SSA has further stated that the contractor and/or SSA
will complete each of the steps outlined in the Office of the Inspector General
recommendations.




                                            14
APPENDICES

                                                         APPENDIX A


                           ACRONYMS



CBA     Cost-Benefit Analysis

CCA     Clinger-Cohen Act

CIO     Chief Information Officer

COTS    Commercial-Off-The-Shelf

FY      Fiscal Year

HR      Human Resources

HRMIS   Human Resources Management Information System

IHRS    Integrated Human Resources System

ITSRS   Information Technology Systems Review Staff

OIM     Office of Information Management

OMB     Office of Management and Budget

OWA     Office of Workforce Analysis

SSA     Social Security Administration

                   APPENDIX B


AGENCY COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“IMPLEMENTATION OF THE SOCIAL SECURITY ADMINISTRATION’S INTEGRATED
HUMAN RESOURCES SYSTEM” (A-14-99-92009)

Thank you for the opportunity to review this OIG draft report. We agree generally with the
report’s findings and recommendations, and are considering them as we re-evaluate the
Integrated Human Resources System (IHRS). By the end of fiscal year 2000, we plan to award a
contract for an independent review of the current PeopleSoft-related IHRS project status
compared to the original project goals and objectives.


Recommendation 1

Re-evaluate the project and address the issues of fiscal oversight, escalating costs, and project
delays.

Comment

We agree. As noted above, we will soon award a contract for an independent review of the
current PeopleSoft-related IHRS project.

Recommendation 2

Complete a risk analysis before implementing any future IHRS releases, as required by the
Clinger-Cohen Act (CCA).

Comment

We agree. As part of the upcoming independent review of the current IHRS, we are requesting
that the contractor lay out alternatives for proceeding with the current IHRS project with pros
and cons for each. A risk analysis will be completed prior to proceeding with IHRS.

Recommendation 3

Complete a cost-effectiveness analysis for IHRS.

Comment

We agree. We will complete a cost-effectiveness analysis before making a decision on whether
to proceed.

Recommendation 4

Complete a new project work plan with cost projections, milestones and estimated future task
orders, and update them periodically.




                                                B-2
Comment

We agree. Once the independent review of the current IHRS has been completed, if a decision is
made to proceed with the current PeopleSoft IHRS, we will renew the IHRS planning consistent
with the approach outlined in this recommendation.

Recommendation 5

Do not approve future funding for IHRS until SSA components forward IHRS’ project work
plans and milestones to the Information Technology Systems Review Staff (ITSRS).

Comment

We agree. ITSRS will continue to be involved in the review of the current PeopleSoft-related
IHRS work plans and milestones.

Recommendation 6

Document the rationale and basis for funding decisions.

Comment

We agree that including documentation that supports funding decisions in decisional memoranda
facilitates the subsequent review of decisions made. In efforts such as IHRS, such
documentation is often extensive, and determinations are made concerning which documentation
is appropriate for inclusion in decisional memoranda. However, as we proceed with system
development efforts, we will ensure that adequate supporting documentation is attached to
decisional memoranda to facilitate subsequent review of planning decisions.

Recommendation 7

Develop a plan to reduce or minimize software problems before implementing future releases of
the IHRS in pilot mode.

Comment

We agree. When the risk analysis is conducted on the current IHRS project, we will ensure that
it includes an assessment of potential software problems and lays out a strategy for mitigating
those risks.




                                              B-3
                                                                           APPENDIX C


                     OIG Contacts and

                   Staff Acknowledgments

OIG Contacts
       Albert J. Darago, Audit Manager, Systems Audit Division, (410) 965-9710

Acknowledgments
In additions to those named above:

   Anita M. McMillan Auditor-in-Charge

   Gregory P. Hungerman, Senior Auditor

   Brian Karpe, Senior Auditor

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-14-99-92009.
                       APPENDIX D


SSA ORGANIZATIONAL CHART

